                             Office of the Inspector General


May 12, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Implementation of Drug Addiction and Alcoholism Provisions of Public Law 104-121
(A-01-98-61014)


Attached is a copy of our final report. Our objective was to determine whether the
Social Security Administration identified all beneficiaries and recipients for whom drug
addiction and/or alcoholism was a contributing factor material to the finding of disability.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                                 James G. Huse, Jr.

Attachment
          OFFICE OF

   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     IMPLEMENTATION OF DRUG

    ADDICTION AND ALCOHOLISM

          PROVISIONS OF

        PUBLIC LAW 104-121


    May 2000     A-01-98-61014





   AUDIT REPORT

                 E X E C U T I V E S U M M A R Y


OBJECTIVE

Our objective was to determine whether the Social Security Administration (SSA)
identified all beneficiaries and recipients for whom drug addiction and/or alcoholism
(DAA) was a contributing factor material to the finding of disability.

BACKGROUND

The Social Security Act was amended on March 29, 1996 as part of the Contract with
America Advancement Act of 1996 (Public Law 104-121) to prohibit the payment of
Disability Insurance (DI) benefits and Supplemental Security Income (SSI) payments if
DAA is material to the finding of disability. DAA is material to the finding of disability
when the evidence establishes that the individual would not be disabled if he/she
stopped using drugs or alcohol. Public Law (P.L.) 104-121 required SSA to terminate
DI benefits and SSI payments for individuals whose disabilities were based on DAA. If
beneficiaries timely appealed their terminations, this law required SSA to conduct
medical redeterminations by January 1, 1997.

Each disability record contains a DAA indicator that shows whether DAA is material, as
well as a primary diagnosis (DIG) code showing the condition that renders the
individual disabled. SSA relied solely on the DAA indicator in determining whether
DAA was material under P.L. 104-121, and did not consider an individual’s DIG code.
DIG codes 3030 and 3040 are SSA’s diagnosis codes for Alcohol Substance Addiction
Disorders and Drug Substance Addiction Disorders, respectively.

We identified 19,946 cases with a DAA indicator showing that DAA was material and/or
a DIG code representing alcohol or drug addiction. We provided a file of the
19,946 cases to SSA officials for their review and they asserted in December 1998 that:

   •	 16,677 cases were either properly handled or miscoded and no further review
      was necessary. Specifically, 14,498 cases were properly handled (i.e., DAA was
      not material and DIG code and DAA indicator were correct) and 2,179 cases
      were miscoded as DAA and SSA planned to re-code these cases. (Of these
      16,677 cases, 10,611 were SSI recipients and 6,066 were DI beneficiaries.)

   •	 3,269 cases did not have sufficient information available on SSA’s DAA control
      file for SSA to determine whether DAA was material. SSA agreed to review
      these 3,269 cases to determine whether the provisions of P.L. 104-121 applied.



                                             i
RESULTS OF REVIEW

SSA did not identify and terminate benefits to all beneficiaries for whom DAA was a
contributing factor material to the finding of disability in accordance with P.L. 104-121.
Our review of DIG codes and DAA indicators on the Master Beneficiary Record and
Supplemental Security Record identified 19,946 cases with a DAA indicator and/or a
DIG code which represented alcohol and/or drug addiction. We reviewed 300 of the
19,946 cases identified to determine whether benefits should have been terminated
under the provisions of P.L. 104-121 and whether cases were properly handled and/or
miscoded.

Specifically, our review of 300 cases identified 52 individuals who are receiving
benefits with a DAA indicator or DIG code representing drug or alcohol addiction. A
total of $782,659 in benefits was paid to these 52 individuals between January 1997
and June 1999. Projecting these results to our population, we estimate that
3,190 individuals were incorrectly paid $38.74 million in benefits from the date
P.L. 104-121 took effect through the date we reviewed the cases. Under SSA’s current
procedures, SSA will not seek recovery of these benefits. SSA’s procedures state that
the termination of benefits based on DAA will not be retroactive to January 1, 1997 due
to the fact that these individuals were not previously notified of the effect of the law on
their benefits.

Additionally, we found cases were miscoded as DAA on SSA’s information systems.
Specifically, we found 238 of 300 cases were coded to indicate that the cases were
DAA even though DAA was not material. Projecting this to the population, we estimate
that 14,420 individuals do not have the correct DIG codes and/or DAA indicators on
their records to show that DAA is not material to the finding of disability. Incorrect
coding could impact SSA’s ability to identify cases affected by new legislation, as well
as to profile cases for continuing disability reviews (CDR).

RECOMMENDATIONS

We recommend that SSA:

�	 Review the 10,611 SSI cases that it asserted were either properly handled or
   miscoded and apply the provisions of P.L. 104-121 where appropriate.

�	 When conducting the next scheduled CDR for the 6,066 DI cases in our extract,
   ensure that benefits are terminated if DAA is material to the finding of disability.

�	 Ensure that the 3,269 cases it agreed to review are completed, the coding
   corrected, and the benefits terminated where appropriate.

�	 Modify its systems so that primary DIG codes of 3030 and 3040 will no longer be
   accepted.


                                             ii
AGENCY COMMENTS

In response to our draft report, SSA agreed with all of our recommendations. (See
Appendix B for the full text of SSA's comments to our draft report.)




                                          iii

                         T A B L E O F C O N T E N T S


                                                                                                                Page

EXECUTIVE SUMMARY ......................................................................................... i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 4


    CASES SSA ASSERTED WERE PROPERLY HANDLED OR

    MISCODED ...................................................................................................... 4


         • DAA Cases Not Properly Handled ......................................................... 5


         • Miscoded DAA Cases............................................................................. 6


    CASES SSA AGREED TO REVIEW ................................................................ 8


RECOMMENDATIONS ........................................................................................ 10


APPENDICES
APPENDIX A – Sampling Methodology and Results

APPENDIX B – Agency Comments

APPENDIX C – Major Contributors to this Report

APPENDIX D – SSA Organizational Chart

                                I N T R O D U C T I O N


OBJECTIVE

Our objective was to determine whether the Social Security Administration (SSA)
identified all beneficiaries and recipients for whom drug addiction and/or alcoholism
(DAA) was a contributing factor material to the finding of disability.

BACKGROUND

The Social Security Act was amended on March 29, 1996 as part of the Contract with
America Advancement Act of 1996 (Public Law 104-121) to prohibit the payment of
Disability Insurance (DI) benefits and Supplemental Security Income (SSI) payments if
DAA is material to the finding of disability. This law required SSA to terminate DI
benefits and SSI payments for individuals whose disabilities were based on DAA. If
beneficiaries timely appealed their terminations, this law required SSA to conduct
                          1
medical redeterminations by January 1, 1997.

DAA is material to the finding of disability only when the evidence establishes that the
individual would not be disabled if he/she stopped using drugs or alcohol. The key
factor SSA considers is which of the current physical and mental limitations, upon
which SSA based the current disability determination, would remain if the individual
stopped using drugs or alcohol and whether any or all of these remaining limitations
would still be disabling.

Each disability record contains a DAA indicator that shows whether DAA is material, as
well as a primary diagnosis (DIG) code showing the condition that renders the
individual disabled. SSA used the DAA indicator to identify which beneficiaries should
be sent termination notices based on the provisions of Public Law (P.L.) 104-121.
Specifically, SSA established procedures that called for termination notices to be sent
to those beneficiaries with a DAA indicator of A, D, or B.2 SSA created a DAA control
file to track those individuals notified of termination due to P.L. 104-121 and any
subsequent appeals.

As of May 30, 1997, SSA had notified 209,374 individuals that their benefits would
terminate under P.L. 104-121. Of these 209,374 individuals:

1
  A medical redetermination is when SSA reviews the evidence associated with the case to determine

whether the individual is disabled.

2
  A - Alcohol material to finding of disability. D - Drugs material to finding of disability. B - Both drugs

and alcohol material to finding of disability.




                                                       1

    • 67 percent actually had their benefits terminated after all appeals;
    •	 31 percent appealed the DAA termination and continued to receive benefits
       based on a disability other than DAA; and
    •	 2 percent continued their benefits because these individuals were incorrectly
       identified as DAA cases.

At the start of our audit work in September 1998, SSA asserted that only 43 individuals
continued to receive benefits due to DAA. Specifically, 38 cases were still receiving
benefits due to the Montague court decision,3 and 5 cases were still pending appeals.

SSA did not consider an individual’s primary DIG code in identifying cases subject to
P.L. 104-121, but relied solely on the DAA indicator. The DIG code refers to the basic
condition that renders the individual disabled and is an integral part of each disabled
individual’s permanent record. DIG codes 3030 and 3040 are the codes for Alcohol
Substance Addiction Disorders and Drug Substance Addiction Disorders, respectively.

SSA used DIG codes 3030 and 3040 to identify DI DAA cases in 1994 in order to
implement the provisions of P.L. 103-296. Section 201 of P.L. 103-296 required SSA to
identify beneficiaries and recipients for whom DAA was material to the finding of
disability and then notify and apply the provisions of the law affecting their benefit
payments.4 At the time this law was enacted, DI records did not contain DAA
indicators, even though SSI records did have DAA indicators. Therefore, SSA used
DIG codes 3030 and 3040 to identify DI DAA cases. A little over a year later, when
P.L. 104-121 was enacted, SSA did not use the DIG code to identify DAA cases, but
relied solely on the DAA indicator.

SCOPE AND METHODOLOGY

We obtained an extract from SSA identifying 19,946 individuals eligible for payments
with a DAA indicator equal to A, D, or B, and/or a DIG code equal to 3030 or 3040.
Specifically, we identified 3,071 cases with a DAA indicator of A, D, or B; and
16,875 cases with a DIG code of 3030 or 3040. (See Appendix A for a breakdown of
our results based on DAA indicator and DIG code.) This population of 19,946 cases
includes 11,035 SSI recipients identified in September 1998 and 8,911 DI beneficiaries
identified in October 1998.5 Our criteria for identifying DAA cases using both the

3
  The U.S. District Court for the State of Maryland, in the case Montague v. Callahan, approved a

settlement that would require SSA to restore DI and SSI benefits based on DAA in the Montague denial

and other similarly situated undecided cases for months after December 1996.

4
  P.L. 103-296, the Social Security Independence and Program Improvements Act of 1994, was enacted

on August 15, 1994 and required individuals entitled to disability benefits based on DAA to obtain a

representative payee and undergo substance abuse treatment (if available). This law affected benefits

paid after February 1995.

5
  Eleven of the beneficiaries/recipients who were receiving benefits in September/October 1998 were not

receiving benefits when P.L. 104-121 was implemented by SSA. Our analysis of these 11 cases showed

that DAA was not material, but that the cases were miscoded as DAA.



                                                   2

primary DIG code and the DAA indicator differed from SSA’s procedures for identifying
individuals affected by P.L. 104-121, which only used the DAA indicator.6

We provided a file of these 19,946 records to SSA for its review to determine whether
these individuals’benefits should have been terminated under P.L. 104-121. In
December 1998, SSA asserted that:

    •	 16,677 cases were either properly handled or miscoded and no further review
       was necessary. Specifically, 14,498 cases were properly handled (i.e., DAA was
       not material and the DIG code and DAA indicator were correct) and 2,179 cases
       were miscoded as DAA and SSA planned to re-code these cases. (Of these
       16,677 cases, 10,611 were SSI recipients and 6,066 were DI beneficiaries.)

    •	 3,269 cases did not have sufficient information available on SSA’s DAA control
       file for SSA to determine whether DAA was material. SSA agreed to review
       these 3,269 cases to determine whether the provisions of P.L. 104-121 applied.

Using a stratified sample design, we reviewed 300 cases. Specifically, we randomly
sampled and reviewed 100 cases from the 16,677 records SSA asserted were either
properly handled or miscoded as DAA to determine whether these cases should have
been reviewed by SSA prior to January 1, 1997 under P.L. 104-121. We quantified the
amount of benefits paid to those individuals whose benefits were not terminated by
SSA as required by P.L. 104-121, if the evidence in the case indicated that DAA may
be material. If the evidence in the case showed that DAA was not material, we
determined whether the cases were incorrectly coded as DAA cases. We considered a
case to be incorrectly coded as DAA if it had a primary DIG code equal to 3030 or
3040 and/or a DAA indicator equal to A, D, or B.

Additionally, we randomly sampled and reviewed 200 cases from the 3,269 records
SSA agreed to review after analyzing our original extract of 19,946 records. We
quantified the number of cases that were miscoded as DAA and subsequently
corrected by SSA, as well as the cases that were DAA and should have been
terminated under the provisions of P.L. 104-121. If DAA was material, we quantified
the amount of benefits paid since P.L. 104-121 took effect in January 1997. (See
Appendix A for our sampling methodology.)

We conducted our review between August 1998 and September 1999 in Boston,
Massachusetts. We conducted our review in accordance with generally accepted
government auditing standards.


6
  Our criteria of using both the DIG code and the DAA indicator was similar to the criteria SSA used to
identify DAA cases under P.L. 103-296.




                                                    3

                      R E S U L T S O F R E V I E W


SSA did not identify and terminate disability benefits to all beneficiaries for whom DAA
was a contributing factor material to the finding of disability in accordance with
P.L. 104-121. We estimate that 3,190 individuals were incorrectly paid $38.74 million7
in benefits from the date P.L. 104-121 took effect (January 1997) through the date we
reviewed the cases (June 1999). Additionally, we estimate that 14,420 individuals do
not have the correct DIG codes and/or DAA indicators on their records to show that
DAA is not material to the finding of disability.

CASES SSA ASSERTED WERE PROPERLY HANDLED OR MISCODED

We reviewed 100 of the 16,677 cases SSA asserted were either properly handled or
miscoded. These 100 cases included 11 with a DAA indicator of A, D, or B and 89 with
a DIG code of 3030 or 3040. Our review of the 100 cases revealed that:

                                                                • In 26 cases, DAA
                                                                   could be material and
               DAA Sample Results for Cases SSA

                                                                   these cases should be
        Asserted Were Properly Handled or Miscoded
                reviewed under
                                                                   P.L. 104-121. The
                                                                   DIG codes for these
                                                                   cases were 3030 or
                                                                   3040.8 Documentation
                                                                   for 23 of these 26
                                        Not Applicable
                                            4
                                                                   cases, dated prior to
       DAA Not Material -
        Case Miscoded                                              the enactment of
            70                                                     P.L. 104-121,
                                                                   indicated that DAA
                                         Case May Be
                                            DAA                    was material to the
                                            26                     finding of disability. In
                                                                   the remaining 3 cases,
                                                                   we could not rule out
                                                                   DAA because of
    insufficient information. We could not identify any information indicating that SSA
    had reviewed the medical condition of these individuals after the law was enacted.
    A total of $299,383 in benefits was paid to these 26 individuals between


7
  We adjusted our projection to reflect the 67 percent final cessation rate of DAA cases under

P.L. 104-121, as shown in the Background section of this report.

8
  None of the 26 cases had a DAA indicator of A, D, or B.



                                                    4

      January 1997 and December 1998. Of these 26 individuals, 25 were SSI recipients
      and 1 was a DI beneficiary. (See the following section on Newly Discovered DAA
      Cases.)

•	 Seventy cases were miscoded as DAA. Our review found that DAA is not material
   to the finding of disability for these cases, despite the fact that 10 cases had a DAA
   indicator equal to A, D, or B and 60 cases had a DIG code of 3030 or 3040. The
   evidence for the cases showed that the individuals would still be disabled if they
   stopped using alcohol or drugs. Our review also noted that SSA corrected the DIG
   code and DAA indicator for 14 of the cases after the start of our audit, but the DIG
   code for 56 cases remains incorrect. (See the section on Miscoded DAA Cases
   below.)

• Four cases were not applicable.9 For two cases, the beneficiaries were deceased;
  and for the other two cases, SSA identified them as newly discovered DAA cases
  prior to the start of our review.

DAA Cases Not Properly Handled

DAA may be a contributing factor material to the finding of disability in 26 cases that
were receiving benefits as of September 1999. The beneficiaries were not identified on
SSA’s electronic records as DAA, and as a result, SSA did not apply the provisions of
P.L. 104-121. These 26 cases had DIG codes equal to 3030 or 3040.

SSA asserted in December 1998 that these 26 cases were either properly handled or
miscoded.10 However, we found evidence that showed DAA was material to the finding
of disability for 23 of these cases; and in 3 cases, we could not rule out DAA as being
material because of insufficient documentation in the case folders. For example, 1 of
the 23 individuals in our sample was selected for review because she was receiving
benefits and had a DIG code of 3030 (Alcohol Substance Addiction Disorders). The
DAA indicator for this case was “N”(DAA not material). Our review of the case folder
identified the following documents:

          1.	 An Office of Hearings and Appeals (OHA) decision, dated April 29, 1993
              stated, “Substance abuse is a substantial reason for the finding of disability
              and the conferring of benefits in this case.”

          2.	 A Request To Be Selected As Payee, dated May 6, 1993, requesting the
              recipient have a representative payee to manage her funds because she is a
              “drug addict and alcoholic.”

          3.	 A memorandum, dated May 24, 1993, regarding the appellate decision in this
              case, requesting the SSA Disability Review Section (DRS) review the
9
    One case had a DAA indicator equal to A and three cases had a DIG code equal to 3030.
10
    SSA asserted that 25 cases were properly handled and 1 case was miscoded.


                                                    5

          medical evidence to determine whether DAA contributed to the finding of
          disability. The DRS responded that “DA/A was a contributing factor”and the
          claimant was determined to be an alcoholic.

      4.	 A Supplemental Security Record (SSR), dated May 14, 1993, showed a DIG
          code of 0010 (Cholera due to Vibrio cholerae) and a DAA indicator of “N.” A
          subsequent SSR, dated July 20, 1993 showed the DIG code was updated to
          3030 to reflect the DAA diagnosis; however, the DAA indicator remained “N”
          indicating that DAA was not material to the finding of disability.

There was no documentation in the case folder to indicate that this individual’s medical
condition was reviewed after the passage of P.L. 104-121. Also, the SSR and the
Continuing Disability Review Control File show that this case was not reviewed by SSA
between the DAA determination in 1993 and our audit work in 1999.

Based on the OHA decision and DRS review of the medical evidence, DAA was
material to the finding of disability in the above example, but the DAA indicator was
miscoded as “N”indicating that DAA was not material. Since SSA identified DAA cases
requiring the termination of benefits under P.L. 104-121 as those cases with a DAA
indicator of A, D, or B, this case was not identified and benefits were not terminated.
SSA’s DAA control file had no record of this individual being sent a DAA termination
notice under P.L. 104-121. Between the effective date of P.L. 104-121 (January 1997)
and December 1998, this individual received a total of $11,736 in SSI disability
payments.

We provided the details of these 26 cases to SSA officials and they agreed with our
overall conclusion that SSA did not identify and terminate disability benefits to all
beneficiaries for whom DAA was a contributing factor material to the finding of disability
in accordance with P.L. 104-121. We projected the results of our sample to the
population of 16,677 cases SSA asserted were properly handled or miscoded. We
estimate that 2,905 of these individuals were potentially overpaid $33.45 million in
disability benefits since P.L. 104-121 prohibited such payments.

For cases where DAA is found to be material but termination notices were not issued
by January 1997, SSA established procedures in June 1999 on the handling of these
cases. SSA’s procedures state that the termination of benefits based on DAA will not
be retroactive to January 1, 1997. Therefore, benefits paid to newly discovered DAA
cases will not be pursued for recovery.

Miscoded DAA Cases

Seventy of the 100 sample cases we reviewed were miscoded on SSA’s electronic
records, indicating that the cases were DAA even though DAA was not material.
Specifically, the SSR and Master Beneficiary Record (MBR) showed DIG codes equal
to 3030 or 3040 on 60 cases and DAA indicators equal to A, D, or B on 10 cases; but


                                            6

the evidence associated with the cases showed that DAA was not material. For
example, we selected one case for review because it had a DIG code equal to 3030.
The DAA indicator on this case was “N.” Upon reviewing the evidence associated with
the case, we found that DAA was not material. Specifically, the:

     1.	 Remarks section of the Compliance History File stated that it was “Decided on
         March 4, 1997 that DAA not material.”
     2.	 Remarks section of Form 83111, dated March 3, 1997, stated “DAA is not
         material”and a new DIG code of 2960 (Affective/Mood Disorders) was selected.
     3.	 Notice of Redetermination, dated March 4, 1997, stated “After reviewing all the
         information carefully, we have decided that alcohol addiction is not a contributing
         factor material to your disability.”

In the above example, the new DIG code that was shown on Form 831 was not placed
on the MBR. Therefore, the DIG was miscoded when we obtained our extract of DAA
cases in October 1998.

The DIG code refers to the basic medical condition that renders an individual disabled,
and SSA uses it in profiling cases for continuing disability reviews (CDR).12
Specifically, the DIG code, along with other characteristics of the individual, is used by
SSA to determine how a medical examination diary date is handled. The diary date
sets the timing of the CDR, and it is an important element for determining when a CDR
is to be performed. Additionally, the DIG code may be used to identify cases requiring
a CDR due to a change in legislation. For example, SSA used DIG codes 3030 and
3040 to identify DI cases when P.L. 103-296 was enacted, and it identified cases
                                                                     13
needing review under P.L. 104-193 using five specific DIG codes. In the example
above, if SSA wanted to identify all beneficiaries with affective disorder for a CDR, or if
a law was enacted that required SSA to terminate benefits to individuals with this
diagnosis, SSA may not identify this case because the coding is incorrect on the MBR.

In December 1998, SSA had asserted that 56 of the 70 cases were properly coded
while the remaining 14 cases were miscoded. As of July 1999, we found that for these
70 cases, SSA had corrected the DAA indicator on 9 cases, the DIG code on 5 cases,
and both the DAA indicator and DIG code on 3 cases.14



11
   SSA uses Form 831 to document initial disability decisions.

12
   A CDR is a periodic review by SSA of an individual’s medical condition to ensure that the individual

receiving disability benefits continues to be disabled.

13
   The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (P.L. 104-193) included

a number of changes affecting the SSI childhood disability evaluation and determination process. SSA

used DIG codes 3010, 3120, 3138, 3140, and 3180 to identify cases affected by this legislation.

14
   This totals to 17 cases that had their DIG and/or DAA code corrected. However, 3 of the 17 cases only

had the DAA indicator corrected and the DIG code remains miscoded. Therefore, only 14 cases had

their coding completely corrected by SSA.



                                                   7

Prior to June 1999, when SSA issued additional instructions15 for working DAA cases,
there were no clear guidelines that required the DAA indicator to correspond with the
DIG code. The June 1999 guidelines issued by SSA state that DIG codes 3030 and
3040 should not be used as the primary diagnosis code if DAA is not material to the
finding of disability. Also, these instructions direct employees to update the DIG code
to a code other than 3030 or 3040 if DAA is not material.16 This differs from earlier
instructions which did not take into consideration an individual’s diagnosis code as an
indicator that DAA may be material to the finding of disability. Projecting the
70 miscoded cases to the population of 16,677, we estimate that 11,674 cases are
miscoded as DAA.

CASES SSA AGREED TO REVIEW

SSA agreed to review 3,269 of the 19,946 cases we identified as possible DAA cases
in our initial extract. These 3,269 cases did not contain sufficient electronic information
to determine whether DAA was material to the finding of disability. To assess SSA’s
review of the 3,269 cases, we randomly sampled 200 of them and found that:

                                                              •	 In 26 cases, DAA was
                                                                 material to the finding of
                DAA Sample Results for Cases                     disability. The DIG code
                      SSA Agreed to Review                       for 17 cases showed that
                                                                 the primary diagnosis was
                                 Not Applicable                  drug addiction or
                                       1
                                                                 alcoholism and the DAA
                                            DAA Material
                                                 24              indicator on 9 cases
                                                Inconclusive     showed that DAA was
                                                     6
                                                                 material to the finding of
                                                                 disability. In response to
        Case Miscoded -
        DAA Not Material
                                                                 our initial audit work, SSA
             168                                                 reviewed these cases. As
                                                                 a result of that review,
                                                                 SSA is no longer paying
                                                                 benefits to these
          individuals or is continuing payments while the individuals are appealing their
          cases. A total of $483,276 in benefits was paid to these individuals between
          January 1997 and June 1999.

      •	 In 168 cases, DAA was not material to the finding of disability, but the DIG code
         and/or DAA indicator were miscoded. Specifically, a DIG code of 3030 or
         3040 was recorded on 77 of the cases and a DAA indicator of A, D, or B was
         recorded on 91 of the cases even though the evidence associated with the
         cases showed that DAA was not material to the finding of disability. Another
15
     Emergency Message 99057 dated June 7, 1999.

16
     These instructions are proactive. SSA did not apply them retroactively.



                                                      8

disability, other than DAA, qualified these individuals for benefits. The
miscoding was corrected on 127 of these cases, but 41 cases remain miscoded
as of




                                  9

      August 31, 1999. On these 41 cases, the DAA indicator was corrected, but the
      DIG code was not corrected. The DIG code on these cases remains 3030 or
      3040.

   •	 In five cases our review was inconclusive. Three of these cases had a DIG code
      of 3030 and two of these cases had a DAA indicator of A, D, or B. SSA has
      been unable to locate the case folders for these five cases and we were unable
      to ascertain from electronic records whether DAA was material or whether SSA
      had completed its review.

   •	 In one case, which had a DAA indicator of D, we did not complete our review
      because the individual is deceased.

Projecting these results to the population of 3,269 cases, we estimate that
285 individuals were incorrectly paid $5.29 million in disability benefits since
P.L. 104-121 took effect. Since SSA did not notify these beneficiaries of the effect of
P.L. 104-121 on their benefits when the law was enacted, SSA decided to not terminate
the benefits retroactively to the effective date of P.L. 104-121. Therefore, the benefits
paid since January 1997 on these newly discovered DAA cases will not be pursued for
recovery. Additionally, we project that 2,746 of the 3,269 cases were miscoded as
DAA.




                                           10

                       RECOMMENDATIONS


We recommend that SSA:

1.	 Review the 10,611 SSI cases that it asserted were either properly handled or
    miscoded and apply the provisions of P.L. 104-121 where appropriate.

2.	 When conducting the next scheduled CDR for the 6,066 DI cases in our extract,
    ensure that benefits are terminated if DAA is material to the finding of disability.

3.	 Ensure that the 3,269 cases it agreed to review are completed, the coding
    corrected, and the benefits terminated where appropriate.

4.	 Modify its systems so that primary DIG codes of 3030 and 3040 will no longer be
    accepted.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations and stated that
corrective actions have already been initiated and/or completed.




                                             11

APPENDICES

                                                                            APPENDIX A



SAMPLING METHODOLOGY AND RESULTS


We obtained from the Social Security Administration (SSA) two data extracts (one from
the Supplemental Security Record and the other from the Master Beneficiary Record)
of all disabled individuals eligible for payments with a diagnosis (DIG) code equal to
3030 or 3040 and/or a drug addiction or alcoholism (DAA) indicator equal to A, D, or B.
We stratified these records into two strata. The first consisted of 16,677 records which
SSA asserted were either handled properly or miscoded as DAA cases. The second
stratum consisted of 3,269 records which SSA agreed to review because DAA may be
material to the finding of disability.

For the first stratum, we randomly sampled and reviewed 100 cases and determined
the total benefits paid for the period January 1997 through December 1998. For the
second stratum, we randomly sampled and reviewed 200 cases and determined the
total benefits paid for the period January 1997 through June 1999. The table below
shows our results. In projecting our results to the population, we took into account that
only 67 percent of the individuals had their benefits terminated in the DAA cases
originally identified by SSA. As such, we adjusted the results of our projections by
67 percent.

                       Sample Results and Projections
                               Strata 1        Strata 2                     Total
Population size                         16,677              3,269             19,946
Sample size                                100                200                300
Attribute Projection – DAA
Material
Sampled cases where DAA                     26                 26                   52
may be material to the
finding of disability
Projection of beneficiaries              4,336                425              4,761
where DAA may be material
Projection lower limit                                                         3,549
Projection upper limit                                                         5,973
Adjustment to estimate of                2,905                285              3,190
beneficiaries where DAA
may be material to reflect 67
percent termination rate




                                           A-1

                                         Strata 1                Strata 2                   Total
Attribute Projection –
DAA Miscoded
Sampled cases where DAA                            70                     168                      238
was not material and the
cases were miscoded
Projection of beneficiaries                   11,674                    2,746                  14,420
where DAA was not
material and the cases
were miscoded
Projection lower limit                                                                         13,153
Projection upper limit                                                                         15,687
Dollar Projection – DAA
Material
Benefits paid in sample                    $299,383                $483,276                 $782,659
cases when DAA may be
material
Projection of benefits paid            $49,928,081               $7,899,149             $57,827,230
when DAA may be material
Projection lower limit                                                                  $42,798,623
Projection upper limit                                                                  $72,855,837
Adjustment to estimate of              $33,451,814               $5,292,430             $38,744,244
benefits paid when DAA
may be material to reflect
67 percent termination rate
Notes:	 All projections are at the 90-percent confidence level. The total column in some instances is
        off by one dollar due to rounding.




                                                   A-2

           Analysis of Results by DAA Indicator and DIG Code
                              Strata 1        Strata 2       Total
Population size                16,677          3,269         19,946
Cases with a DAA indicator      1,342          1,729          3,071
of A, B, or D
Cases with a DIG code of       15,335          1,540         16,875
3030 or 3040

Sample size                       100            200            300

Sample Cases with a DAA            11            103            114
indicator of A, B, or D
Cases where DAA may be              0              9                 9
material
Cases that were miscoded           10             91            101
as DAA
Cases that were                     0              2                 2
inconclusive
Cases that were not                 1              1                 2
applicable

Sample Cases with a DIG            89             97            186
code of 3030 or 3040
Cases where DAA may be             26             17             43
material
Cases that were miscoded           60             77            137
as DAA
Cases that were                     0              3                 3
inconclusive
Cases that were not                 3              0                 3
applicable




                                  A-3

                   APPENDIX B



AGENCY COMMENTS

COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION ( SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL ( OIG) DRAFT REPORT,
“IMPLEMENTATION OF DRUG ADDICTION AND ALCOHOLISM PROVISIONS
OF PUBLIC LAW (P.L.) 104-121” (A-01-98-61014)

Thank you for the opportunity to review the above subject
audit report. Accurate implementation of the provisions of
P.L. 104-121 is a significant issue for SSA.

The Agency has worked aggressively to successfully
implement this legislation and has in fact conducted
hundreds of thousands of reviews resulting in nearly
120,000 terminations of benefits. Nevertheless, the OIG
has identified a relatively small group of cases involving
drug addiction and alcoholism ( DAA) that were not reviewed.

The cases identified by the OIG involve instances where
coding anomalies resulted in cases not being selected for
review. These coding anomalies, i.e., annotations to our
files that DAA was not material to the finding of
disability, largely occurred before 1994 when the
involvement of DAA did not affect eligibility. The OIG
believes, and we concur, that these cases should be
reviewed.

We thank the OIG for identifying this small cohort of cases
and accept their recommendations. All the potentially
affected cases have been released for review. As a
priority issue, all reviews will be completed as
expeditiously as possible and all reviews will certainly be
concluded by the close of the fiscal year.

Finally, we would note that while the OIG estimates that as
a result of our reviews of these cases, over 3,000
individuals may have their benefits terminated, our
experience leads us to believe that fewer terminations may
result because individuals are likely to remain eligible
based on other disabling impairments. Despite this
difference of opinion about the potential impact of the
reviews, we completely agree with the need to perform them
in order to ensure program integrity.

Following are our comments on specific recommendations.




                               B-2

1.   OIG Recommendation

     Review the 10,611 SSI cases that the Agency asserted
     were either improperly handled or miscoded and apply
     the provisions of P.L. 104-121 where appropriate.

     SSA Comment

     We agree.     These cases have been released for priority
     review.

2.   OIG Recommendation

     When conducting the next scheduled CDR for the 6,066 DI
     cases in our extract, ensure that benefits are
     terminated if DAA is material to the finding of
     disability.

     SSA Comment

     We agree. Affected cases have already been released
     for priority review.

3.   OIG Recommendation

     Ensure that the 3,269 cases the Agency had previously
     agreed to review are completed, the coding corrected,
     and the benefits terminated where appropriate.

     SSA Comment

     We agree. Except for about 50 cases, the review of all
     of these cases has been completed, and the remaining
     cases will be completed shortly.

4.   OIG Recommendation

     Modify systems so that primary DIG codes of 3030 and
     3040 will no longer be accepted.

     SSA Comment

     We agree. In August 1999, SSA completed modifying its
     systems to preclude the primary DIG codes of 3030 and
     3040 in all cases except denials. We believe that when
     a case is denied because DAA is material to the finding
     of disability, use of DIG 3030 or 3040 is appropriate.




                                  B-3

                                                                    APPENDIX C



MAJOR CONTRIBUTORS TO THIS REPORT


   Office of the Inspector General

   Roger J. Normand, Director, Disability Program Audit Division

   Rona Rustigian, Deputy Director

   Judith Oliveira, Auditor

   David Mazzola, Auditor

   Kevin Joyce, Auditor

   Katie Hallock, Auditor




For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
Identification Number A-01-98-61014.
                        APPENDIX D



SSA ORGANIZATIONAL CHART

